         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Audit Report




       EPA Needs to Improve Oversight of
       Its Information Technology Projects

       Report No. 2005-P-00023   



       September 14, 2005

Report Contributors:	              Eric Lewis
                                   Rudolph M. Brevard
                                   Michael Wall
                                   Dwayne Crawford
                                   Rae Donaldson
                                   Neven Morcos




Abbreviations:

CAMDBS       Clean Air Markets Division Business System

EPA          Environmental Protection Agency

FinRS        Financial Replacement System

IGMS         Integrated Grants Management System

IRM          Information Resources Management

OEI          Office of Environmental Information

OIG          Office of Inspector General

OMB          Office of Management and Budget
                        U.S. Environmental Protection Agency                                            2005-P-00023

                        Office of Inspector General                                                September 14, 2005 





                        At a Glance
                                                                           Catalyst for Improving the Environment

Why We Did This Review            EPA Needs to Improve Oversight of Its
                                  Information Technology Projects
We sought to determine
whether the processes used by
                                   What We Found We Found We Found
Environmental Protection
Agency (EPA) managers to
                                  EPA’s Office of Environmental Information (OEI) did not sufficiently oversee
oversee the development of
                                  information technology projects to ensure they met planned budgets and
information technology
                                  schedules. The increased cost and schedule delays for the projects we reviewed
projects helped produce
                                  may have been averted or lessened with adequate oversight. PeoplePlus cost at
intended results. We also
                                  least $3.7 million more than originally budgeted and took 1 year longer than
sought to determine how well
                                  planned to deploy. Modifications to developing the Clean Air Markets Division
Agency management
                                  Business System have already increased costs about $2.8 million and extended the
monitored these projects.
                                  target completion date by 2 years.
Background
                                  Following implementation of the Clinger-Cohen Act, the Agency did not revise
To help ensure EPA manages        procedures under Chapter 17 of the Information Resources Management (IRM)
its information systems in a      Policy Manual to have the Chief Information Officer evaluate information
cost-effective manner, life       technology program performance. Also, EPA did not include responsibilities
cycle development guidance        under its Interim Policy that required the Chief Information Officer to evaluate the
requires management               performance of the Agency’s information technology program. In addition,
involvement at key decision       requirements under the Agency’s Capital Planning and Investment Control
points. These decisions must      Process, governed by OEI, did not ensure necessary project documentation.
be documented by EPA              Consequently, OEI did not know that System Sponsors did not require System
management in the system          Managers to completely document risks associated with system development.
decision documents before the     The lack of project documentation prevents the appropriate level of oversight for
system may advance from one       the different phases of development, and results in decision makers not having the
phase of development to the       information needed to make fully informed decisions regarding project risks.
next.
                                  What We Recommend We Recommended We Recommend
For further information,
contact our Office of             We recommend that OEI revise its Interim Policy to include the Chief Information
Congressional and Public          Officer having responsibility for conducting independent reviews of Agency
Liaison at (202) 566-2391.
                                  information technology projects. We also recommend that OEI revise procedures
To view the full report,          under the Interim Policy to define requirements of specific life cycle
click on the following link:      documentation and address risk elements. Further, OEI should ensure formal
                                  procedures are followed to make certain that System Managers prepare required
www.epa.gov/oig/reports/2005/
                                  system life cycle documentation, and that System Owners review and approve that
20050914-2005-P-00023.pdf
                                  documentation before projects advance between life cycle phases. During our
                                  review, OEI officials acknowledged their oversight of information technology
                                  projects could be strengthened, and said they would initiate corrective action.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460



                                                                                       OFFICE OF 

                                                                                  INSPECTOR GENERAL




                                       September 14, 2005

MEMORANDUM

SUBJECT:              EPA Needs to Improve Oversight of Its Information Technology Projects
                      Report No. 2005-P-00023

FROM:                 Rudolph M. Brevard /s/
                      Acting Director, Business System Audits

TO:                   Kimberly T. Nelson
                      Assistant Administrator for Environmental Information
                        and Chief Information Officer

This is our final report on the oversight of information technology projects audit conducted by
the Office of Inspector General (OIG) of the U.S. Environmental Protection Agency (EPA).
This audit report contains findings that describe problems the OIG has identified and corrective
actions the OIG recommends. This report presents the opinion of the OIG, and the findings in
this report do not necessarily represent the final EPA position. EPA managers, in accordance
with established EPA audit resolution procedures, will make final determinations on matters in
this report.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days of the date of this report. You should include a corrective action
plan for agreed upon actions, including milestones dates. We have no objections to further
release of this report to the public. For you convenience, this report will be available at
http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at (202) 566-0893
or Dwayne E. Crawford, project manager, at (202) 566-2894.
                                  Table of Contents 

At a Glance


Chapters
   1	   Introduction ...........................................................................................................      1    


                Purpose ..........................................................................................................    1
                Background ....................................................................................................       1
                Scope and Methodology.................................................................................                3

                Results in Brief ...............................................................................................      4


   2	   OEI Needs to Improve Oversight of Information Technology

        Project Development ............................................................................................              6


                Oversight of Information Technology Projects Is Required ............................                                 6

                Various Factors Caused Cost Increases and Delays ....................................                                 7

                Lack of Documentation Hindered Appropriate Oversight ..............................                                   8

                Recommendations ..........................................................................................            9

                Agency Comments and OIG Evaluation.........................................................                           9




Appendices
   A    Agency Response to Draft Report ………………….…………………………...                                                                        11


   B    Distribution ..………………………………………………..……………………..                                                                                15

                               Chapter 1
                                Introduction

Purpose
          We evaluated the processes used by Environmental Protection Agency (EPA)
          managers to oversee the development of information technology projects.
          Specifically, we sought to determine whether these processes helped produce
          intended results. We also sought to determine how well Agency management
          monitored these projects.

Background
          Information technology investments can significantly impact an organization's
          performance. EPA needs to effectively manage these investments in a cost-
          effective manner. The Clinger-Cohen Act of 1996 (Public Law 104-106) and
          Office of Management and Budget (OMB) Circular A-130 both require agency
          chief information officers to oversee information technology investments.

          At EPA, the initial Agency guidance governing the projects in our review was
          Chapter 17 of the Information Resources Management (IRM) Policy, September
          1994, which identified the life cycle requirements to develop information system
          projects. One requirement was for System Managers to prepare decision papers
          that updated the status of system development, provided assessments of projected
          versus actual project costs, and described work to be accomplished as projects
          advanced from one phase to the next. Another requirement was for System
          Sponsors to approve or disapprove decision papers, and conduct periodic life
          cycle management reviews to evaluate costs and efficiency of operations.

          In December 2003, OEI replaced Chapter 17 with its Interim Policy. This
          document continued the role and responsibilities previously established for
          information technology projects’ System Managers. However, it added the role
          of a System Owner to approve decision papers as projects advanced from one
          phase to the next.

          To inform decision makers of the risks associated with project development,
          procedures under the Interim Policy also continued the previous requirement to
          prepare documentation at various life cycle phases, as follows:




                                          1

                           Initiation Decision Paper
      Initiation           System Management Plan




      Concept              Security Risk Assessment
      Definition           Cost-Benefit Analysis



                           Requirements Decision Paper
    Requirements
                           System Test Plan
      Definition
                           Security Plan



                           Development Decision Paper
       Design




    Construction           User/System Documentation



                           System Implementation Plan
                           Technical Vulnerability Assessment
       Testing
                           Security Test & Evaluation (ST&E)
                           Report Certifier's Statement



   Implementation          Implementation Decision Paper




    Operations &
                           Security Controls Review
    Maintenance




     Termination           Retirement Decision Paper



In accordance with the Clinger-Cohen Act, EPA implemented a Capital Planning
and Investment Control Process in 1997 to maximize the value and assess and
manage the risks of information technology acquisitions. Each year since that
time, EPA has continually improved the Capital Planning and Investment Control



                                2

         Process to make it more structured and strategic. Specific process improvements
         included:

            •	 Creating a senior management information technology investment review
               board to oversee and select information technology projects;

            •	 Defining selection criteria, and using peer review to analyze each
               information technology investment; and

            •	 Automating the process to facilitate proposal preparation and allow
               continuous monitoring of information technology investments.

         Furthermore, the Agency’s Capital Planning and Investment Control Process has
         evolved to include a rigorous Earned Value Management program under which all
         major information technology investments must adhere. Earned value
         management is the Agency’s mechanism to review cost, schedule, and
         performance for major information technology investments in development. The
         Earned Value Management program, administered by OEI, requires that project
         managers track project cost, schedule, and performance, and report the results to
         the senior management review board on a quarterly basis. OEI officials stated
         earned value management results are used by the Chief Information Officer to
         report to the EPA Administrator annually on the status of information technology
         projects.

Scope and Methodology
         From May 2004 through April 2005, we conducted our field work at EPA
         Headquarters in Washington, DC. We reviewed management internal controls for
         the review and oversight of information technology project development. We
         requested and reviewed system life cycle documentation in accordance with
         Federal and Agency criteria, and interviewed Agency personnel involved with the
         system life cycle development of the projects selected for review. We conducted
         this audit in accordance with Government Auditing Standards, issued by the
         Comptroller General of the United States.

         Our review focused on information technology development and adherence to life
         cycle policies and procedures. To identify systems in development, we reviewed
         the 26 fiscal year 2005 Capital Planning and Investment Control business cases
         EPA submitted to OMB. We initially selected for review three business cases,
         representing $36.55 million, or 27 percent, of the $134.79 million system
         development funding requests for fiscal year 2005 and beyond:




                                         3

            System Owner                   System
            Office of                      Financial Replacement System (FinRS)
            Chief Financial Officer
            Office of Air and              Clean Air Markets Division Business System (CAMDBS)
            Radiation
            Office of Administration and   Integrated Grants Management System (IGMS)
            Resources Management

           FinRS’ and CAMDBS’ business cases reported scheduling variances to OMB in
           September 2003, which indicated potential problems with system development.
           The IGMS business case did not contain any variances at the time of reporting.
           At EPA’s request, we substituted IGMS with OEI’s Environmental Information
           Integration and Portal Development system, but after determining that system was
           still in the initiation rather than design phase, we decided to concentrate on FinRS
           and CAMDBS.

           We reviewed the PeoplePlus component of the FinRS project because schedule
           delays and cost overruns had occurred during its development. PeoplePlus
           combines EPA’s payroll processing and human resources systems. PeoplePlus
           supports the Office of Chief Financial Officer’s payroll processing requirements
           and the Office of Administration and Resources Management’s human capital
           management responsibilities.

           For CAMDBS, the Office of Air and Radiation recognized in 1999 that
           significant technological changes had occurred and believed it needed a new
           system. As a result, Office of Air and Radiation began replacing its Acid Rain
           Data System with CAMDBS, which integrates all the functions and data that
           support the emission trading programs.

Results in Brief

           OEI did not sufficiently oversee information technology projects to ensure they
           met planned budgets and schedules. The increased cost and schedule delays for
           the projects we reviewed may have been averted or lessened with adequate
           oversight. PeoplePlus cost at least $3.7 million more than originally budgeted and
           took 1 year longer than planned to deploy. Modifications to CAMDBS
           development have already increased costs about $2.8 million and extended the
           target completion date by 2 years. Following implementation of the Clinger-
           Cohen Act, the Agency did not revise procedures under Chapter 17 of the IRM
           Policy to have the Chief Information Officer evaluate information technology
           program performance. Also, EPA did not include responsibilities under its
           Interim Policy that required the Chief Information Officer to evaluate the
           performance of the Agency’s information technology program. In addition,
           processes under the Agency’s Capital Planning and Investment Control Process,



                                              4

governed by OEI, did not ensure that System Managers prepared and submitted
for review necessary project documentation.

We recommend that OEI revise procedures under its Interim Policy to include the
Chief Information Officer having responsibility for conducting independent
reviews of projects, and to better define requirements of specific life cycle
documentation to address risks elements. OEI should also ensure that established
procedures are followed under the Interim Policy to make certain that System
Managers provide required system life cycle documentation, and that System
Owners review and approve that documentation before projects advance.

OEI agreed with the goals sought in the draft audit report, and substantially
agreed with the recommendations. OEI requested that the final report include a
more complete picture of the work they have done to manage the Capital Planning
and Investment Control and Earned Value Management governance processes.
As appropriate, we revised the final report in response to OEI’s request. Our
evaluation of OEI’s response to the draft report is in Chapter 2. We included
OEI’s complete response as Appendix A.




                                5

                                Chapter 2
          OEI Needs to Improve Oversight of
     Information Technology Project Development

          OEI did not sufficiently oversee information technology projects to ensure they
          met planned budgets and schedules. The increased costs and schedule delays for
          the following projects we reviewed may have been averted or lessened with
          adequate oversight:

          •	 PeoplePlus: This cost at least $3.7 million more than originally budgeted and
             took 1 year longer than planned to deploy.

          •	 CAMDBS: Modifications to system development have already increased
             costs about $2.8 million and extended the target completion date by 2 years.

          Following implementation of the Clinger-Cohen Act, the Agency did not revise
          procedures under Chapter 17 of the IRM Policy to have the Chief Information
          Officer evaluate information technology program performance. Also, OEI did not
          include responsibilities under its Interim Policy that required the Chief
          Information Officer to evaluate the performance of the Agency’s information
          technology program. In addition, requirements under the Agency’s Capital
          Planning and Investment Control Process, governed by OEI, did not effectively
          ensure that System Managers prepared and submitted for review necessary life
          cycle documentation. Consequently, OEI did not know that System Sponsors did
          not ensure PeoplePlus and CAMDBS System Managers completely documented
          risks associated with system development. The lack of project documentation
          also prevented the appropriate level of oversight for the different phases of
          development, and resulted in decision makers not having the information needed
          to make fully informed decisions regarding project risks.

Oversight of Information Technology Projects Is Required
          The Clinger-Cohen Act of 1996 (Public Law 104-106) and OMB Circular A-130
          require the Chief Information Officer to evaluate information technology
          investments and advise on whether to continue, modify, or terminate projects.

          Chapter 17 of the IRM Policy, September 1994, identified the Agency’s initial life
          cycle requirements needed to develop information systems projects. The manual
          required a System Management Plan that contains decision papers showing that
          each stage of the project’s development was approved ahead of time. Chapter 17
          also established certain management roles and responsibilities:



                                           6

                 •	 The System Sponsors were tasked with approving or disapproving decision
                    papers, and conducting periodic life cycle management reviews to evaluate
                    costs and efficiency of operations.

                 •	 The System Managers were to manage the system’s life cycle process, prepare
                    the System Management Plan and other decision papers, and obtain review
                    and approval of all decision papers.

                 However, following implementation of the Clinger-Cohen Act, the Agency did
                 not revise procedures under Chapter 17 of the IRM Policy to have the Chief
                 Information Officer evaluate information technology program performance.
                 Furthermore, OEI did not include responsibilities under its Interim Policy that
                 required the Chief Information Officer to evaluate the performance of the
                 Agency’s information technology program. In discussions with OEI regarding
                 project management oversight, officials stated they did not have the personnel to
                 review the progress of all Agency information technology projects. In response to
                 our draft report, OEI officials stated it is critical for the Chief Information Officer
                 to focus on the development of guidance (i.e., policies and procedures) so
                 program managers can make good decisions. Further, officials responded that the
                 cornerstone of the Agency’s information technology project development and
                 review relies on the delegated responsibilities of senior program managers in
                 organizations that own information technology projects.

                 In accordance with the Clinger-Cohen Act, EPA did implement a Capital
                 Planning and Investment Control Process in 1997 to maximize the value and
                 assess and manage the risks of information technology acquisitions. According to
                 an OEI official, the Capital Planning and Investment Control Process has evolved
                 to include a rigorous Earned Value Management program to review cost,
                 schedule, and performance for major information technology investments in
                 development. However, the Agency’s Capital Planning and Investment Control
                 Process, and subsequent Earned Value Management program, did not sufficiently
                 ensure that Systems Managers prepared and submitted for review required life
                 cycle documentation, such as decision papers and System Management Plans,
                 used to document the status of system development costs and schedules.

Various Factors Caused Cost Increases and Delays
                 According to the Software Engineering Institute,1 major changes to commercial
                 off-the-shelf software can increase costs and cause delays. This is what happened
                 to the PeoplePlus project. The System Managers made major changes to the
                 commercial off-the-shelf software to integrate the human resources component
                 with the payroll component. In addition, when faced with schedule delays, the
                 System Managers modified their test approach. Rather than continue with a pilot

1
  The Software Engineering Institute provides guidance to the Federal Government on developing information
technology projects


                                                       7

          production of PeoplePlus prior to full Agency deployment, the System Manager
          approved the change to a collaborative test effort. This effort included concurrent
          system integration testing; independent verification and validation testing; and,
          user acceptance testing. However, this increased risks because the collaborative
          test effort eliminated the opportunity to see a live system in operation before
          deployment.

          Although EPA was originally scheduled to deploy PeoplePlus in October 2003,
          significant technical failures delayed deployment until October 2004. According
          to earned value management calculations, the Office of Chief Financial Officer
          budgeted $13.4 million, for development and deployment of PeoplePlus by
          October 2003, but incurred additional costs of $3.7 million, bringing the total to
          $17.1 million as of October 2004. In addition, the Office of Administration and
          Resources Management spent $8 million on PeoplePlus, thus bringing the total
          development cost to $25.1 million. (We could not determine the amount initially
          budgeted by the Office of Administration and Resources Management.)

          The Office of Air and Radiation, which began developing CAMDBS in 2001, had
          estimated a total cost of $13.7 million and completion by 2006. However, System
          Managers now estimate an additional $2.8 million will be needed, for a total of
          $16.5 million. Further, because the project is far more complex than originally
          envisioned, the Office of Air and Radiation now estimates project completion in
          2008, a 2-year extension.

Lack of Documentation Hindered Appropriate Oversight
          Life cycle documentation, such as decision papers, is important for two reasons.
          First, they summarize those aspects of the analysis and decision of a given phase
          that are important to program management. Second, they are used to request
          approval to continue the project to the next phase. According to the OEI Interim
          Policy, System Managers are to submit the decision papers to System Owners,
          who are required to review the information and decide whether to advance the
          project to the next life cycle phase. Further, EPA’s Capital Planning and
          Investment Control Process require that System Managers ensure that necessary
          life cycle management documentation, such as decision papers, are prepared and
          submitted for review.

          However, both PeoplePlus and CAMDBS advanced from phase to phase even
          though the System Managers did not prepare all of the required documents. For
          example, there was no decision paper prepared during the “Implementation
          Phase” of life cycle development to document the inherent risks to changing
          commercial off-the-shelf software, or to the risks involved in modifying the
          PeoplePlus testing approach. The CAMDBS System Manager did not prepare
          any required decisions papers, including the System Management Plan decision
          paper. The System Management Plan is the core document that provides the
          overall framework for the management of the system development.


                                           8

         Office of Chief Financial Officer personnel said OEI’s Interim Policy is vague
         and open to interpretation on the content of life cycle documentation, in particular
         decision papers. However, the personnel did not inform OEI of their concerns
         regarding the content requirements of life cycle documentation. In the case of
         CAMDBS, the System Manager was not aware of the documentation requirement.

         The lack of project documentation prevents the appropriate level of oversight for
         the different phases of development, and results in decision makers not having the
         information needed to make fully informed decisions regarding project risks.
         Further, OEI did not monitor the projects or verify the accuracy and completeness
         of the life cycle documentation required under their Policy.

         During our review, OEI officials acknowledged their oversight of information
         technology projects could be strengthened. OEI officials informed us that they
         plan to align procedures under their Capital Planning and Investment Control
         Process with those under their Interim Policy to effect corrective action in
         response to our findings.

Recommendations

         We recommend that the Assistant Administrator for Environmental Information:

            2-1     Revise the Interim Policy to include the Chief Information Officer
                    having responsibility for conducting independent reviews of Agency
                    information technology projects, to be in accordance with the Clinger-
                    Cohen Act and OMB Circular A-130.

            2-2     Revise procedures under the Interim Policy to define requirements for
                    life cycle documentation, such as decision papers; and to address risk
                    elements, such as major changes to commercial off-the-shelf software
                    and the system test approach.

            2-3     Ensure that Systems Managers follow established procedures and
                    provide required system life cycle documentation to appropriate levels
                    of management regarding risks associated with information technology
                    projects at each phase, and that System Owners follow established
                    procedures to review and approve that documentation before projects
                    advance from one life cycle phase to the next.

Agency Comments and OIG Evaluation

         OEI concurred with our recommendations, and agreed that additional tools for
         oversight are needed, that managers must take responsibility, and that the Chief
         Information Officer should set forth the policy and framework. OEI requested
         that the report be revised to include a more complete picture of the work that has


                                          9

been done to manage the Capital Planning and Investment Control and Earned
Value Management governance processes. We revised our report in response to
OEI’s request.

OEI officials indicated that Interim Policy procedures were previously established
for required documentation during various system life cycle management phases,
and management review of such documentation. Our report acknowledges these
requirements, points out that program offices were not meeting these
requirements, and notes that OEI was not aware that these requirements were not
being followed. For these reasons, we believe the Chief Information Officer
should have an increased role in evaluating the status of Agency information
technology projects and should conduct independent reviews of information
technology projects.

In addition, OEI officials said they believe the OIG’s review may have been based
on previous versions of the revised Interim Policy and that the current policy
should now reflect OIG comments and suggestions provided in February 2005.
However, our research and interviews with Agency officials indicate that OEI has
not formally approved or promulgated a new Interim Policy. As such, no new
Interim Policy supersedes the December 29, 2003, Interim Policy requirements
applicable during this review.




                                10

                                                                                    Appendix A

                   Agency Response to Draft Report



                                          July 28, 2005

MEMORANDUM

SUBJECT:       Response to June 15, 2005, Draft Office of Inspector General Audit Report: EPA
               Needs to Improve Oversight of Its Information Technology Projects, Assignment
               No. 2004-000857

FROM:          Kimberly T. Nelson /s/
               Assistant Administrator and Chief Information Officer

TO:            Nikki L. Tinsley
               Inspector General


       Thank you for the opportunity to respond to the June 15, 2005, Draft Office of Inspector
General Audit Report: EPA Needs to Improve Oversight of Its Information Technology
Projects, Assignment No. 2004-000857.

        The Office of Environmental Information agrees with the goals sought in the draft audit
report, and we substantially agree with the recommendations. We agree additional tools for
oversight are needed, that managers must take responsibility, and that the Chief Information
Officer will set the policy framework. We would appreciate the report being revised to include a
more complete picture of the work that we have done to manage the Capital Planning and
Investment Control and Earned Value Management governance processes.

        I have attached a detailed response to the three recommendations raised in the report. If
you have any questions regarding this response, please contact me at (202) 564-6665, or if your
staff have questions please contact Odelia Funke, Acting Director of the Mission Investment
Solutions Division, at (202) 566-0667.

Attachment

cc:    Rudolph Brevard, OIG




                                                11

                   Office of Environmental Information Response to 

             June 15, 2005, Draft Office of Inspector General Audit Report: 

        “EPA Needs to Improve Oversight of Its Information Technology Projects” 


Office of Inspector General Recommendation: 2-1. Revise the Interim Policy to include the
Chief Information Officer having responsibility for conducting independent reviews of Agency
information technology projects, in accordance with the Clinger-Cohen Act and OMB Circular
A-130.

Office of Environmental Information Response:

The Office of Environmental Information (OEI) endorses the value of having independent
reviews as a tool for project oversight. The cornerstone of Agency information technology (IT)
project development and review will continue to be grounded on the delegated responsibilities of
senior program managers in the organizations that own IT projects. It is critical for the Chief
Information Officer (CIO) to focus on guidance so program managers can make good decisions.
In keeping with the CIO’s IT leadership in management of the Capital Planning and Investment
Control (CPIC) process, OEI will ensure reviews are conducted with appropriate independence
but without substantial cost increase. OEI will add the following review elements to its CPIC
governance system:

       o	 formal delegation of this responsibility through the System Life Cycle Management
          Policy
       o	 an additional question in the Capital Planning and Investment Control process asking
          for certification of the completeness of an IT project’s System Life Cycle (SLC)
          documentation and required approvals
       o	 increased emphasis on the importance of reviewing solutions architecture documents.

To address the need for detailed project reviews to help senior managers in program offices, the
CIO will insist that Independent Verification and Validation be conducted as appropriate,
establishing the conditions for independent reviews, and the depth and scope needed. We will
develop a corrective action plan to carry out CIO authority to compel and ensure good reviews.

Office of Inspector General Recommendation: 2-2. Revise the Interim Policy to define
requirements for life cycle documentation, such as decision papers; and to address risk elements
such as major changes to commercial off-the-shelf software and system test approach

Office of Environmental Information Response:

We agree on the need for life cycle documentation, and that addressing risk elements is a key
component. Our policy framework takes a tiered approach, differentiating between “Policy” and
“Procedures.” The Office of the Inspector General’s (OIG) review of the Interim Policy must
have been based upon previous versions of the revised SLC Management Policy. The SLC
Management Policy now reflects OIG comments and suggestions received in February of this



                                               12

year. It will require that documentation be produced, and the SLC Management Procedure will
elaborate on what that documentation is, and what information is required in specific documents.

The Interim Policy requires documentation during System Life Cycle Management Phases,
including security planning, risk assessments and decision papers. Additionally, the Interim
Policy requires documentation based on requirements of IT Investment Management, including
Enterprise Architecture (EA) and Capital Planning and Investment Control (CPIC). This
documentation was further described in approved Federal and Agency documents that supported
the Interim Policy, including the Interim Procedure. The “Policy” states the high level goals of
the Agency, while the “Procedure” explains how to meet the goals established in the “Policy.”
The “Procedure” supports the “Policy,” and requirements are mandated. The Interim Procedure
lists and describes in more detail the documentation requirements during management of the
System Life Cycle.

The Interim Policy also requires documented management review and approval. This includes
the review and approval of a system’s decision documents prior to the system advancing from
one phase to another, prior to the incremental expenditure of resources, and prior to being
deployed.

The Interim Procedure also requires System Managers to submit “Decision Papers” to
management for review and approval in order to advance the system from one SLC phase to the
next. These documents are part of the System Management Plan (SMP), one of the major
documents required for SLC Management. Specifically, the Interim Procedure describes the
“Decision Papers” as:

       A decision document presented to management. It summarizes those aspects of the
       analysis and decisions of a given phase or sub phase that are important to program
       management and requests approval to continue the project. The EPA life-cycle model
       provides for decision papers to be prepared at the beginning of the Definition,
       Development or Acquisition, Implementation, and Termination Phases and at the end of
       the Requirements Definition Sub phase. The level of detail for decision papers should be
       appropriate to the category of the system. All decision papers are included in the SMP as
       attachments. (Interim Procedure, pg. 13)

Other examples defining the requirements of system documents can be found in the “Definition”
section of the Interim Procedure. Definitional requirements can also be found in other standards
adopted by the Agency, specifically National Institute of Standards and Technology (NIST) 800
64, “Security Considerations in the Information System Development Life Cycle.”

Finally, it should be noted that the Interim Policy is being revised and will continue to require
documentation, as well as management review and approval, throughout System Life Cycle
management. Additionally, the Interim Procedure is also being revised and will expand the
definitional requirements of documentation in the System Life Cycle. They will include the
requirements of the SLC Management Policy, as well as Enterprise Architecture, CPIC, and
Security. The revised SLC Management Procedure will also provide templates for these
documents, as tools for system developers.


                                                 13

Office of Inspector General Recommendation: 2-3. Establish formal procedures to make
certain that System Managers provide required system life cycle documentation to appropriate
levels of management regarding risks associated with information technology projects at each
phase, and that System Owners review and approve that documentation before projects advance
from one life cycle phase to the next.

Office of Environmental Information Response:

As noted above, the Interim Procedure requires management review and approval during each
phase of the System Life Cycle through “Decision Papers” found in the SMP. Additionally, the
Interim Policy requires “Authorization to Process” during the Implementation Phase. The
“Authorization to Process” is defined by the Interim Procedure as:

       A management control, consisting of a document signed by the management official
       responsible for a general support system or major application. (This management official
       is sometimes referred to as the “Designated Approving Authority.”) It authorizes an
       information system to operate, prior to beginning processing or use of the system.
       Authorization is equivalent to the term “accreditation.” For a system, the authorization is
       based on implementing the system security plan. For an application, the authorization is
       based on confirming that the security plan(s) implemented for the systems on which the
       application operates, adequately secure the application. Results of the most recent tests
       and/or assessments are factored into management authorizations. Management
       authorization implies accepting the risk of each system used by the application (derived
       from Appendix III, Office of Management and Budget (OMB) Cir. A-130). (Interim
       Procedure, pg. 11)

Additionally, “Re-authorization to Process” is required during the Operations and Maintenance
Phase. Formal procedures ensuring documentation is submitted to management were in place
starting when the Interim Procedure was approved (12/29/03, extended on 4/29/05).

Also, as is stated in the Interim Procedure, documentation of risks is required in the “Security
Plan,” which is updated based on “Security Risk Assessments.” Risk assessments are required
not only as part of System Life Cycle, but also in the Agency Network Security Policy and its
supporting Procedures and guidance.

In summary, the Interim Procedure already addresses OIG’s concerns. It requires the needed
documentation, as well as management review and approval. As OEI revises the Interim
Procedure we will continue to support and strengthen this requirement.




                                                14

                                                                       Appendix B

                                    Distribution

Office of the Administrator
Assistant Administrator for Environmental Information
Assistant Administrator for Administration and Resources Management
Assistant Administrator for Air and Radiation
Agency Followup Official (the CFO)
Agency Followup Coordinator
Director, Office of Technology Operations and Planning
Director, Systems Planning and Integration Staff
Acting Director, Mission Investment Solutions Division
Audit Coordinator, Office of Environmental Information
Audit Coordinator, Office of Administration and Resources Management
Audit Coordinator, Office of Air and Radiation
Audit Coordinator, Office of Chief Financial Officer
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Inspector General




                                             15

